<html>
<title> - POWERING AMERICA: CONSUMER-ORIENTED PERSPECTIVES ON IMPROVING THE NATION'S ELECTRICITY MARKETS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   POWERING AMERICA: CONSUMER-ORIENTED PERSPECTIVES ON IMPROVING THE 
                      NATION'S ELECTRICITY MARKETS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2017

                               __________

                           Serial No. 115-62
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-772 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2047504f604355535448454c500e434f4d0e">[email&#160;protected]</a> 
                                   
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                   Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan7
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
DAVID B. McKINLEY, West Virginia     JOHN P. SARBANES, Maryland
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
MARKWAYNE MULLIN, Oklahoma           G.K. BUTTERFIELD, North Carolina
RICHARD HUDSON, North Carolina       FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
TIM WALBERG, Michigan
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     2
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     4
    Prepared statement...........................................     5

                               Witnesses

Joseph Bowring, President, Monitoring Analytics, Independent 
  Market Monitor for PJM.........................................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................    84
Rebecca L. Tepper, Chairman, Consumer Liaison Group for the ISO-
  New England Region.............................................    15
    Prepared statement...........................................    17
    Answers to submitted questions...............................    89
Mark Vanderhelm, Vice President of Energy, Walmart...............    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................    93
John P. Hughes, President and Chief Executive Officer, 
  Electricity Consumers Resource Council.........................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................    98
Stefanie A. Brand, Director, New Jersey Division of Rate Counsel.    45
    Prepared statement...........................................    47
    Answers to submitted questions...............................   105
Tyson Slocum, Director, Public Citizen Energy Program............    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   110

 
   POWERING AMERICA: CONSUMER-ORIENTED PERSPECTIVES ON IMPROVING THE 
                      NATION'S ELECTRICITY MARKETS

                              ----------                              


                       THURSDAY, OCTOBER 5, 2017

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:17 a.m., in 
Room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Shimkus, 
Latta, McKinley, Johnson, Long, Bucshon, Flores, Mullin, 
Hudson, Walberg, Rush, McNerney, Green, Castor, Tonko, 
Schrader, Kennedy, Butterfield, and Pallone (ex officio).
    Staff present: Allie Bury, Legislative Clerk, Energy/
Environment; Kelly Collins, Staff Assistant; Zack Dareshori, 
Staff Assistant; Wyatt Ellertson, Research Associate, Energy/
Environment; Adam Fromm, Director of Outreach and Coalitions; 
Tom Hassenboehler, Chief Counsel, Energy/Environment; Jordan 
Haverly, Policy Coordinator, Environment; A.T. Johnston, Senior 
Policy Advisor, Energy; Drew McDowell, Executive Assistant; 
Alex Miller, Video Production Aide and Press Assistant; Brandon 
Mooney, Deputy Chief Energy Advisor; Mark Ratner, Policy 
Coordinator; Annelise Rickert, Counsel, Energy; Dan Schneider, 
Press Secretary; Peter Spencer, Professional Staff Member, 
Energy; Jason Stanek, Senior Counsel, Energy; Madeline Vey, 
Policy Coordinator, DCCP; Priscilla Barbour, Minority Energy 
Fellow; Jeff Carroll, Minority Staff Director; Rick Kessler, 
Minority Senior Advisor and Staff Director, Energy/Environment; 
John Marshall, Minority Policy Coordinator; Alexander Ratner, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Member Services, and Outreach; Tuley Wright, 
Minority Energy and Environment Policy Advisor; and C.J. Young, 
Minority Press Secretary.
    Mr. Olson. The committee will now come to order. And the 
Chair at this time will not make an opening statement. I would 
like to ask the ranking member, Mr. Rush or Mr. Pallone, would 
you like to make opening statements?
    The Chair calls upon our ranking member of the 
subcommittee, Mr. Rush, for a 5-minute opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman. I want to thank you for 
holding this important hearing today regarding consumer-
oriented perspectives to improving the Nation's electricity 
markets.
    Mr. Chairman, throughout this Powering America series of 
hearings, we are told repeatedly that the energy landscape is 
changing significantly. And it is vital that we hear from 
people who are being impacted the most, consumers and 
retailers. With most of the testimony submitted, there seems to 
be a consensus that consumers do not have the opportunity to 
fairly participate of all the developments taking place within 
the energy markets.
    As we will soon hear, Mr. Chairman, many consumer advocacy 
groups believe that the RTOs are too beholden to the utilities 
than they are trying to administrate. And consumers do not have 
a large enough seat at the table to make their voices heard.
    Many of these advocates argue that the whole process for 
reforming energy markets have become more and more complex, 
while at the same time consumer voices have been diluted to the 
point of being completely shut out. There also seems to be, a 
new consensus, Mr. Chairman, among today's witnesses, that FERC 
and DOE have become too tolerant of the RTOs' ability to shut 
out public interests, and participation, and policymakers must 
act to address this challenge.
    Additionally, most, if not all of today's witnesses, take 
extreme exception to the most recent DOE notice of proposed 
rulemaking issued on September 29 on grid resiliency policy. 
Many, many in this room, plus DOE, are in the difficult 
position of unfairly and unjustly picking winners and losers, 
and placing the interests of select industries above the public 
interest.
    While it is one thing for elected officials of individual 
States to adopt policies to address the needs of their 
constituencies, we must be careful of allowing unelected DOE 
officials to try and mandate a one-size-fits-all approach to an 
independent agency like FERC.
    Mr. Chairman, whether through the creation of the legally 
mandated FERC office of public participation or through some 
other vehicle, we must ensure that the consumer voices are 
being heard and public advocacy rules are able to receive 
sustainable assistance and the financial compensation they need 
to have them fully participate in the FERC and RTO proceeding.
    So, Mr. Chairman, I really look forward to this engaging 
panelon the best way to address some of these important issues. 
And with that I yield the remainder of my time to my friend, 
Mr. Kennedy.
    Mr. Kennedy. Thank you very much, Mr. Rush, for yielding, 
and many thanks to you and Chairman Upton for holding this 
hearing, among others, in the Powering America series.
    To all the witnesses, thank you for being here this 
morning, and particularly to Ms. Tepper from our Commonwealth. 
Thank you for your work and dedication, all that your office 
continues to do for our Commonwealth. Grateful that you are 
here today.
    During my time as a Member of Congress, I have 
unfortunately become all too aware of the complexities of the 
electricity markets, particularly in New England. I have 
learned quickly that the more complex a system becomes, the 
more likely it is that somebody is getting short-changed. This 
dynamic is all too real in the electricity sector, particularly 
for consumers who are either unaware, shut out, or simply 
unable to participate in the process, yet continue to bear the 
increased cost.
    While already paying the highest retail electricity rates 
in the lower 48, our region is about to get hit with yet 
another increase this winter. What has become clear to me is 
that there is no simple fix to this challenge, which makes the 
work that we all are trying to undertake all the more critical.
    I look forward to your testimony and working with you to 
increase transparency and to amplify consumers' voice in this 
important debate. Thank you. And I yield back.
    Mr. Upton. The time has expired. And Chair would indicate 
that--sorry we started a little late, we had votes on the House 
floor. And in order for us to listen to you, I am going to put 
my statement into the record and yield back my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning. After examining grid reliability issues 
earlier this week, today's Powering America hearing turns our 
focus to the people and organizations who advocate on behalf of 
the Nation's electricity consumers. Whether the consumer is a 
large purchaser of electricity, such as Walmart, or one of the 
millions of households that take service from a local electric 
company, there are individuals working behind the scenes to 
advocate and represent the interests of utility consumers. We 
have some of those fine folks with us today.
    Today's witness panel includes ratepayer advocates, as well 
as representatives for industrial, commercial, and residential 
consumers. We also have with us the Independent Market Monitor 
for the PJM Interconnection--the world's largest wholesale 
electricity market. Since the Powering America series has 
largely focused on the organized wholesale electricity markets, 
we will spend much of our time examining the role of the 
Nation's RTOs and ISOs and the processes they use to 
incorporate feedback from various stakeholder interests, 
including the views of end-use consumers.
    Our hearing will also consider the role of the Federal 
Energy Regulatory Commission, who is the Federal agency charged 
with regulating the RTOs and ISOs. As an independent agency, 
FERC's core mission is to provide ``Reliable, Efficient and 
Sustainable Energy for Customers'' and they attempt to achieve 
this goal by helping consumers obtain reliable and efficient 
energy at a reasonable cost through regulatory and market 
means. I should also mention that FERC is celebrating its 40th 
anniversary this week, so congratulations to the Commissioners 
and staff at the Commission.
    In today's testimony, I hope that the witnesses will share 
their perspectives on how individual consumers can participate 
in the proceedings before the Commission. I'd also like to get 
a better understanding of how the various RTOs and ISOs 
incorporate consumer perspectives in their stakeholder 
processes, and whether the witnesses believe any improvements 
can be made. I should note that under Order No. 719, FERC 
already requires that RTOs and ISOs be responsive to the needs 
of the consumers who ultimately pay for electricity services.
    I recognize that we're dealing with very complicated 
markets and the average consumer is going to leave it to you 
(the witnesses) to sort through the details and ramifications 
of the various market design and rate proposals. That's all the 
more reason why I want to make sure that yourviews and the 
interests of consumers are adequately represented in the 
electricity markets. If those views are represented, I am 
confident that the markets will deliver benefits to all 
consumers, large and small.

    Mr. Upton. I know Mr. Pallone would like to say a few 
things, so I will yield for an opening statement to the ranking 
member of the full committee, Mr. Pallone.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I want to commend you 
and Mr. Rush for putting together today's hearing to examine 
consumer perspectives and concerns with respect to electricity. 
We have an outstanding set of witnesses, including the Director 
of New Jersey's Division of Rate Council, Stefanie Brand, who 
is here representing the National Association of State Utility 
Consumer Advocates. I have had the pleasure of working with Ms. 
Brand, who has served in her role in both Republican and 
Democratic administrations. And I can tell you that she is a 
fierce, thoughtful, and successful advocate for our State's 
ratepayers. Thank you for being here.
    This is an extremely important topic to delve into, and it 
couldn't come at a more critical time, particularly given 
Energy Secretary Perry's ill-conceived and wholly unjustified 
effort to commandeer the Federal Energy Regulatory Commission's 
rule making process, to provide unduly preferential and 
discriminatory rates to coal and nuclear generators.
    If adopted by FERC, it will certainly result in increased 
cost to consumers with no significant benefit, and it will mark 
the beginning of the end of competitive electricity markets. I 
understand the concern around closure of non-economic coal and 
nuclear power plants. Nuclear plants, in particular, not only 
employ hundreds of thousands of people and provide financial 
benefits to the communities that surround them, but they 
provide large amounts of carbon-free energy that help make it 
possible to meet our Nation's climate goals.
    However, Secretary Perry's proposal represents an 
unprecedented attempt to usurp policy making functions that 
belong to Congress and the States. This proposal is not about 
regulation and markets, which is what the Federal Power Act 
tasked FERC with. It is about subsidizing certain players in 
the electricity market at the expense of consumers and other 
generators who compete against the fuel types favored by the 
rule.
    Regardless of whether you believe that it is a useful or 
harmful proposition, it is clearly a policy change that is far 
outside of FERC's purview. As former FERC Chairman Norman Bay 
recently noted, in order to move forward on the Secretary's 
proposal, FERC would have to find its own current rules to be 
unjust and unreasonable, and then find that the new rules 
favoring coal and nuclear generation are just and reasonable. 
And that is the kind of back-flip that even the most flexible 
olympic gymnast would have a hard time pulling off.
    We are still--this is a proposal that is not supported by 
the facts or even by the Secretary's own grid reliability 
report. And that is a view shared by many on both sides of the 
aisle. For instance, the R Street Institute rightly called the 
proposal an arbitrary backdoor subsidy to coal and nuclear 
plants that risks undermining electrical competition throughout 
the United States. And going on to say, the consumers would 
ultimately bear a hefty and unnecessary bill from any such 
Draconian intervention.
    Meanwhile, Gerry Cauley, president of the organization 
tasked by law with overseeing the grid's reliability, recently 
declared that the state of reliability in North America 
remained strong and the trend line shows continuing improvement 
year after year. Moreover, much of the Secretary's proposal 
seems to be anchored to the idea that somehow renewables and 
even national gas-fired generation are somehow a threat to a 
reliable grid.
    And I have certainly been a critic of national gas 
overbuild and pipeline safety, but I have not expressed doubt 
about the reliability of our Nation's natural gas system, the 
way this administration has, in its efforts to justify 
subsidies for coal and other favored fuels.
    Not only has there been no empirical evidence to date to 
support the Secretary's proposal, in the modern history of 
electricity in this Nation there has not been a significant 
blackout caused by a lack of generation adequacy. In fact, 
according to a 2000 report by the Bush administration, the 
largest blackout in U.S. history was caused not by a lack of 
resources, but rather by management and programming failures by 
a single Ohio utility, First Energy, which lead to actions that 
turned--which should have been a localized situation into an 
event affecting some 50 million people. That had nothing to do 
with generation mix.
    And it is critical to note that in that situation, nuclear-
based load power did not contribute to the stability of the 
grid with nine nuclear power reactors shut down the result of 
loss of backup power. So as I stated at our reliability 
hearing, I firmly believe that it is time to start looking at 
reliability in new and different ways. The technology has 
transformed dramatically over the past 10 years or so, perhaps 
faster than our policies and our rate making models have been 
able to keep up with.
    We should carefully reexamine the old approaches to 
reliability, resiliency, and rate making, to seriously consider 
whether our long term interests are better served by charting a 
new course. But, unfortunately, the Secretary's proposal is a 
power play, essentially, designed to move things in precisely 
the opposite direction. He wants to move us away from a modern 
balance fuel mix, lower consumer costs, and fewer environmental 
externalities, and back towards a time when coal was king and 
consumers had no control.
    So I urge FERC to reject this proposal and I hope that all 
my colleagues will join me in helping move our policies forward 
towards a more resilience, reliable, and cost effective grid 
that benefits consumers as well as protects the environment. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, I want to commend you and Mr. Rush for 
putting together today's hearing to examine consumer 
perspectives and concerns with respect to electricity. We have 
an outstanding set of witnesses, including the Director of New 
Jersey's Division of Rate Counsel, Stefanie Brand, who is here 
representing the National Association of State Utility Consumer 
Advocates. I've had the pleasure of working with Ms. Brand, who 
has served in her role in both Republican and Democratic 
administrations, and I can tell you that she is a fierce, 
thoughtful, and successful advocate for our State's ratepayers.
    This is an extremely important topic to delve into and it 
couldn't come at a more critical time, particularly given 
Energy Secretary Perry's ill-conceived and wholly unjustified 
effort to commandeer the Federal Energy Regulatory Commission's 
(FERC's) rulemaking process to provide unduly preferential and 
discriminatory rates to coal and nuclear generators. If adopted 
by FERC, it will certainly result in increased costs to 
consumers with no significant benefit and it will mark the 
beginning of the end of competitive electricity markets.
    I understand the concerns around closures of non-economic 
coal and nuclear power plants. Nuclear plants, in particular, 
not only employ hundreds or thousands of people and provide 
financial benefits to the communities that surround them, but 
they provide large amounts of carbon-free energy that help make 
it possible to meet our Nation's climate goals.
    However, Secretary Perry's proposal represents an 
unprecedented attempt to usurp policy-making functions that 
belong to Congress and the States. His proposal is not about 
regulation and markets--which is what the Federal Power Act 
tasks FERC with--it's about subsidizing certain players in the 
electricity market at the expense of consumers and other 
generators who compete against the fuel types favored by the 
rule. Regardless of whether you believe that is a useful or 
harmful proposition, it is clearly a policy change that is far 
outside of FERC's purview. As former FERC Chairman Norman Bay 
recently noted, in order to move forward on the Secretary's 
proposal, FERC would have to find its own current rules to be 
``unjust and unreasonable'' and then find that the new rules 
favoring coal and nuclear generation are ``just and 
reasonable.'' That's a kind of backflip that even the most 
flexible Olympic gymnast would have a hard time pulling off.
    Worse still, this is a proposal that is not supported by 
the facts or even by the Secretary's own grid reliability 
report -and that's a view shared by many on both sides of the 
aisle. For instance, the R Street Institute rightly called the 
proposal ``an arbitrary backdoor subsidy to coal and nuclear 
plants that risks undermining electrical competition throughout 
the United States'' and going on to say that ``consumers would 
ultimately bear a hefty and unnecessary bill from any such 
draconian intervention.'' Meanwhile, Gerry Cauley, president of 
the organization tasked by law with overseeing the grid's 
reliability, recently declared that ``the state of reliability 
in North America remains strong, and the trend line shows 
continuing improvement year over year.'' Moreover, much of the 
Secretary's proposal seems to be anchored to the idea that 
somehow renewables and even natural gas-fired generation are 
somehow a threat to a reliable grid. I have certainly been a 
critic of natural gas overbuild and pipeline safety, but even I 
have not expressed doubt about the reliability of our Nation's 
natural gas system the way this administration has in its 
efforts to justify subsidies for coal and other favored fuels.
    Not only has there been no empirical evidence to date to 
support the Secretary's proposal, in the modern history of 
electricity in this Nation, there has not been a significant 
blackout caused by a lack of generation adequacy. In fact, 
according to a 2004 report by the Bush administration, the 
largest blackout in US history was caused not by a lack of 
resources, but rather by management and programming failures by 
a single Ohio utility, First Energy, which led to actions that 
turned what should have been a localized situation into an 
event affecting some 50 million people. That had nothing to do 
with generation mix.
    And, it is critical to note that in that situation, nuclear 
baseload power did not contribute to the stability of the grid, 
with nine nuclear power reactors shut down as a result of the 
loss of backup power.
    As I stated at our reliability hearing, I firmly believe 
that it is time to start looking at reliability in new and 
different ways. The technology has transformed dramatically 
over the past 10 years or so, perhaps faster than our policies 
and our rate-making models have been able to keep up with. We 
should carefully reexamine the old approaches to reliability, 
resiliency and ratemaking to seriously consider whether our 
long-term interests are better served by charting a new course.
    Unfortunately, the Secretary's proposal is a power play 
designed to move things in precisely the opposite direction. He 
wants to move us away from a modern, balanced fuel mix, lower 
consumer costs and fewer environmental externalities and back 
toward a time when coal was king and consumers had no control.
    I urge FERC to reject this proposal and hope that all my 
colleagues, on both sides of the aisle, will join me in helping 
move our policies forward toward a more resilient, reliable, 
and cost effective grid that benefits all consumer classes and 
the environment.
    Thank you, I yield back.

    Mr. Upton. The gentleman's time has expired. We are going 
to move to the testimony of our panel at this point.
    I want to say, we appreciate you submitting your testimony 
in advance, it is part of the record. If you are able to 
actually go through your remarks maybe faster than 5 minutes, 
that would be appreciated because we are expecting votes again 
in about 30 minutes. So perhaps we can get to questions at that 
point.
    We are joined first by Joe Bowring, President, Monitoring 
Analytics, Independent Monitor for PJM. Welcome.

STATEMENTS OF JOSEPH BOWRING, PRESIDENT, MONITORING ANALYTICS, 
    INDEPENDENT MARKET MONITOR FOR PJM; REBECCA L. TEPPER, 
   CHAIRMAN, CONSUMER LIAISON GROUP FOR THE ISO-NEW ENGLAND 
  REGION; MARK VANDERHELM, VICE PRESIDENT OF ENERGY, WALMART; 
    JOHN P. HUGHES, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
  ELECTRICITY CONSUMERS RESOURCE COUNCIL; STEFANIE A. BRAND, 
   DIRECTOR, NEW JERSEY DIVISION OF RATE COUNSEL; AND TYSON 
        SLOCUM, DIRECTOR, PUBLIC CITIZEN ENERGY PROGRAM

                  STATEMENT OF JOSEPH BOWRING

    Mr. Bowring. Thank you, Mr. Chairman, and members of the 
subcommittee. And thank you for the opportunity to appear 
before you today. My name, as you said, is Joe Bowring. I am 
the Independent Market Monitor for the PJM wholesale power 
markets. I do not speak for PJM. I speak for the market 
monitor.
    The role of the independent monitor, as defined by FERC, 
and included in the tariff, is to help ensure that the PJM 
markets are competitive by proposing market rules that incent 
competition, by monitoring for market power and by reporting on 
the markets. And while I am on a panel of consumer advocates, 
the role of the market monitor is not to be consumer advocate. 
I am an advocate for efficient, competitive wholesale power 
markets, which bring clear benefits to customers, as well as to 
suppliers of power.
    PJM is the largest wholesale power market in the world. The 
largest competitive wholesale power market in the world 
covering 13 States and the District of Columbia. The goal of 
competition in the wholesale power markets is to provide 
customers wholesale power at the lowest possible price. The PJM 
markets work. The PJM markets bring customers the benefits of 
competition. But the PJM markets, as we have, heard, face new 
challenges that threaten the viability of competitive markets.
    One benefit of competitive power markets is they are 
dynamic, flexible and resilient. The PJM market has resulted in 
a reliable system despite significant changes in underlying 
market forces. Technical innovation and lower gas costs have 
been key market forces. The PJM, as we know, there have been 
very significant unit retirements. They have also been 
substantial new entry, all driven by market forces. The PJM 
market design has worked flexibly to address both market exit 
and entry without preferences for any technologies. The results 
of new entry has been lower costs and increased reliability.
    So, particularly, in times of stress on markets and on some 
particular generating technologies, nonmarket solutions may 
appear attractive. Top down, integrated resource planning 
approaches are tempting because it is easy to think that 
experts know exactly the right mix and location of generation 
resources, and the appropriate definition of diversity, and the 
appropriate definition of reliability, and therefore, which 
technologies should be favored.
    Subsidies are tempting because they maintain existing 
resources and provide increased revenues to asset owners in 
uncertain markets. Cost of service regulation is tempting 
because guaranteed rates of return and fixed prices may look 
attractive to asset owners in uncertain markets.
    But once the decision is made that market outcomes must be 
fundamentally modified, it will be virtually impossible to 
return to markets. The subsidy model is inconsistent with the 
PJM market design and constitutes a significant threat to PJM 
markets.
    The issue of external subsidies continued to evolve in 
2017. Ohio subsidy proceedings and Illinois subsidy proceedings 
originated from the fact that competitive markets resulted in 
the retirements of specific uncompetitive generating units. And 
regardless of the specific rationales offered, the proposed 
solution for all those units was unit specific subsidies. The 
subsidies were not to accomplish broader goals, they were to 
save particular units.
    The recent Department of Energy, NOPR, proposes a much 
broader market intervention through cost of service regulation 
for specific unit types that would have a correspondingly large 
and negative impact on PJM's competitive wholesale power 
markets.
    The proposed subsidy solutions ignore the opportunity cost 
of subsidizing uneconomic units. They suppress energy and 
capacity market prices and suppress incentives for investment 
in new, higher efficiency thermal plants, but also suppress 
investment incentives for innovation in the next generation of 
energy supply technologies and energy efficient technologies. 
These impacts are large and long lasting.
    Subsidies are contagious. If uneconomic resources are 
artificially retained, this will suppress prices and create a 
need for additional subsidies for the remaining units. 
Competition in the markets will be replaced by competition to 
receive subsidies.
    There is no reason to intervene in the markets in order to 
provide reliability and resilience. If PJM or FERC or DOE 
identify a need for greater reliability, it can be addressed 
using market mechanisms not out of market mechanisms. 
Competitive markets were introduced as an alternative form of 
regulation to ensure that the wholesale power is provided at 
the lowest possible price.
    The PJM markets are working. The PJM markets provide 
competitive, reliable, and resilient outcomes. The PJM markets 
should be permitted to continue to work. And I was 40 seconds 
short of the 5 minutes. Sorry for not being shorter. Thank you.
    [The prepared statement of Mr. Bowring follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you. Next we are joined by Rebecca Tepper, 
Chair of the Consumer Liaison Group for the ISO-New England 
Region.
    Welcome. Make sure you turn the switch on your mike there.

                 STATEMENT OF REBECCA L. TEPPER

    Ms. Tepper. Thank you for having me, Mr. Chairman. And 
thank you to the rest of the committee, and particularly, 
thanks to Congressman Kennedy for the nice words, and for your 
fierce advocacy on behalf of consumers in Massachusetts, 
really, everyone appreciates that.
    So my name is Rebecca Tepper and I am the Chief of the 
Telecom and Energy Division of the Massachusetts Attorney 
General's Office. But I also have the honor of being the Chair 
of the Consumer Liaison Group for ISO-New England, and that is 
why I am here today.
    Thank you for holding this hearing and for recognizing the 
importance of consumer participation in the decisionmaking 
processes at our RTOs. I think sometimes we forget what meets 
when RTOs make decisions, and what it means to sort of the 
everyday consumer. You know, decisions about market operations, 
they effect whether your grandma who lives on a fixed income is 
going to be able to afford to keep her lights on. Decisions 
about reliability, they affect whether that hospital is going 
to be able to stay online 24 hours a day.
    Decisions about electric reliability determine whether your 
manufacturing facility is going to be able to stay in your town 
and whether people are going to be able to continue working. 
And decisions about transmission affect your State's ability to 
get power from where it is to where the people are living.
    So these are important decisions for every single person 
that lives in an RTO, and I think we have to keep those in mind 
when we think about consumer participation.
    FERC and the RTOs have recognized that it is important to 
give voice to the people in businesses who ultimately use and 
pay for electricity. With FERC's guidance, many RTOs have 
developed mechanisms to educate consumers and allow consumer 
participation in the stakeholder process. In New England there 
are currently two main avenues for customers to participate, 
The Consumer Liaison Group or becoming a member of NEPOOL.
    The Consumer Liaison Group was formed to meet the need for 
heightened communication between RTOs and their stakeholders 
pursuant to FERC Order 719. In my written testimony, I provided 
a lot of information regarding the history and the governance, 
so I will not go over all of that.
    Today I will tell you about, just quickly, about our core 
work, which is we have quarterly, meetings, which attract a 
diverse group between 75 and 100 attendees at every meeting, 
they are open to the public. They are held throughout New 
England in the different States to allow broad participation. 
We generally have a keynote speaker, and then we have ISO 
available for updates and to answer questions. And then we 
usually have a panel discussion to get differing views on 
particular issues. Just to give you a sense, our recent 
meetings have addressed solar, cybersecurity, clean energy 
initiatives, and transmission development under FERC Order 
1000.
    But I want to be clear about what the CLG is and what the 
CLG is not. So the CLG is primarily an educational entity, it 
provides for a wide range of stakeholders, not just the State 
consumer advocates, to gain a better understanding of the ISO 
processes, and learn how ISO-New England actions impact 
customers. I think the CLG has successfully provided consumers 
with pricing data and information about their retail bills.
    It has taken some of the mystery out of the ISO-New England 
process and increased transparency. But what it is not is an 
advocacy group that represents consumer's interests. As it 
operates today, the CLG has no formal role in the ISO-New 
England stakeholder decisionmaking process. It is simply not a 
substitute for NEPOOL membership and participation in the ISO 
stakeholder process.
    My office is a member of NEPOOL. We devote a lot of 
resources to it. We have saved consumers $60 million over the 
last couple of years doing that. But not everybody can do that. 
And it is--certainly not most consumers can do that, can devote 
the resources necessary to be informed and productive 
contributors to the stakeholder process. They are complicated. 
They are expensive. And they are time consuming.
    So very quick, I will give you four ideas about how I think 
things could be improved. First, I think it is helpful to 
establish a CLG, to have an educational component. I think it 
would be most effective with their own executive director.
    Second, I think we should establish a stable funding 
mechanism that enables all State consumer advocates to fully 
participate in the RTO stakeholder process. This could be done 
either by providing funds to individual offices or through an 
association of consumer advocates, like the CAPS program at 
PJM.
    Third, I think we should require all RTOs to consider cost 
in their decisionmaking, and provide cost impact analysis, 
including retail bill impacts on major proposals, and 
reasonable alternatives offered by stakeholders.
    And, finally, to increase communication between RTO boards 
and consumers by having consumer representation on the board, 
and having board members come to stakeholder meetings with 
consumers. Thank you very much.
    [The prepared statement of Ms. Tepper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you. Next we are joined by Mr. Mark 
Vanderhelm, VP of Energy for Walmart. Thank you.

                  STATEMENT OF MARK VANDERHELM

    Mr. Vanderhelm. Thank you, Chairman Upton, and thank you, 
the members of the subcommittee, for the opportunity to provide 
testimony.
    My name is Mark Vanderhelm, I lead the energy procurement 
for Walmart. Fundamentally, we are looking at using less. What 
we do use, we would like to pay less for, and we focus on 
paying less for, and we would like to turn that greener. That 
is the focus for my role.
    We operate in the 50 States, District of Columbia, and 
Puerto Rico. As part of that role, I oversee Texas retail 
energy, a wholly owned subsidy of Walmart, which participates 
in the wholesale markets, and operates as a competitor electric 
supplier directly serving our stores in 11 States. The Walmart 
energy team works to deliver on Walmart's mission to save our 
customers money, so they live better, and we pass those savings 
on to our customers through cost management and through energy 
efficiency.
    We are market advocates and we are advocates of customer 
sited electricity and increasing that stakeholder process. 
Customer engagement in regulatory and stakeholder arenas is 
critical, especially as the industry transitions to a business 
model in which customers sited generation sources become as 
important to the system as you utility-owned resources.
    Competitive wholesale electricity markets and customer 
choice and retail electricity markets are integral to our 
success. When paired together, they create direct economic 
benefits to our stores and our customers. Competitive wholesale 
markets also provide the transparent and easily transactable 
platform for the procurement of renewable energy. As an 
example, in Texas, we are able to procure directly wind supply 
that serves our stores without utility or regulatory 
intervention, based on the wholesale construct that exists 
there in Texas.
    Customer choice gives us the freedom to choose a supplier 
that best meets our business goals, with services offerings 
that provide choices on price, reliability, and generation mix. 
The contrast of monopoly utilities companies, they are 
essentially guaranteed recovery for their costs from customers, 
competitive suppliers must offer superior service, better 
prices, and the investment is borne by their shareholders.
    The benefits of competitive wholesale markets, this is an 
interesting statistic, customer choice are clear. When we 
compare our costs from 2006 to 2017, the reduction--and when we 
have customer choice, there is a reduction of 7 percent on 
average. In areas where we don't have customer choice, we have 
seen an increase in prices like 14 percent. Extremely relevant 
to understand the impact of having that customer choice.
    States and utilities should be encouraged to develop new 
competitive wholesale markets or expand existing markets. And 
Walmart recommends that the subcommittee explore policy changes 
that allow FERC to streamline those regular approvals. The 
development of renewable energy associated infrastructure 
creates a secure electric grid in the long term, and an 
economic opportunity and jobs in the short term.
    To that end, Walmart has established aggressive goals. We 
have committed to 100 percent renewable over the longer term. 
For 2025, we have committed to 18 percent reduction in our 
greenhouse gas footprint aligning ourselves with science-based 
targets. As a subset of that, that also includes energy 
efficiency, but as a subset of that is the commitment to 50 
percent renewable by 2025.
    We have 480 offsite and onsite renewable energy projects in 
operation and under development in seven countries and in 18 
U.S. States and Puerto Rico. Walmart is deploying cutting-edge 
customer-sighted technology. We have six large battery systems, 
we have over 50 fuel cells, and we have 100 locations with 
electric vehicle charges, 300 electric vehicle charges at those 
100 locations. So we are active in that customer-sighted 
sources of electricity, and use of electricity.
    Customer choice should extend to customer activities behind 
the meter. Whether those activities generate or save 
electricity. A number of States limit the financing mechanism 
through which a customer can procure on-site generation 
technology, which ultimately limits the adoption of those 
technologies. Walmart typically uses a PPA structure leveraging 
capital from external parties and operations from external 
parties.
    However, the technology employed by customers is becoming 
more responsive to grid--sorry. The discussion around PPAs and 
other financing models has largely been focused on on-sight 
installations. The technology deployed by customers is becoming 
more responsive to grid conditions and transactive with 
customers and market participants.
    As it is the case with on-site solar, new technologies 
could be construed as challenges to the business of the 
incumbent utilities, and the response could be to limit their 
financing structures, able to be used to deployment.
    To unleash the potential benefit of customer-sighted 
technology, the Federal Government should implement clear 
policies that give customers the freedom to install the 
technology on their homes and businesses that they want, and to 
finance it however they choose.
    I appreciate the comments and the opportunity to present 
testimony.
    [The prepared statement of Mr. Vanderhelm follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you. Next, we are joined by John Hughes, 
President and CEO of the Electricity Consumers Resource 
Council. Welcome.

                  STATEMENT OF JOHN P. HUGHES

    Mr. Hughes. Thank you, Chairman Upton, and other members of 
the subcommittee. I represent large U.S. manufacturers, they 
have facilities all over the United States, and especially 
within the footprints of the Nation's ISOs and RTOs.
    We were founded in 1976 in anticipation of the enactment of 
the law called PURPA, and our initial focus was Title I of the 
PURPA that included several Federal rate making standards. 
ELCON played a key role in the implementation of those 
standards at the State level to ensure that they would produce 
economically efficient and non-discriminatory rates.
    Beginning in the 1980s, our focus shifted to PURPA Title 
II, many ELCON members had a steam requirement at their 
manufacturing facilities. And PURPA Title II enabled them to 
use a technology known as cogeneration or combined heat and 
power for great economic advantage. This technology makes it 
easier to produce both steam and electricity at this site, and 
is quite cost effective. These members that we had in those 
days were champions in the use of natural gas-fired and 
combined cycle generation units.
    Our basic principle of regulation is market-based solutions 
are preferred over command and control. We were instrumental in 
the early year--around the turn of the century in restructuring 
the utility industry in this country and the creation of the 
ISOs and RTOs. We have faith in those institutions to this day.
    You have probably heard from Gerry Cauley's speech a couple 
of weeks on a central reliability services. NERC has been 
working for several years on defining these services as a means 
for sustaining the highly reliable grid that we have. FERC has, 
in the past, has been using these services and has created 
markets for them. They have, however, backed off from creating 
markets for one particular one, primary frequency response, and 
we have been negotiating with that agency to try to make amends 
on that.
    Price formation is a big issue at FERC. They began a series 
of rulemaking beginning the 2014 to try to improve the prices 
that come out of the ISO and RTO markets. We believe that the 
markets have gotten a little bit too complex and lack 
transparency. A more simple market structure we believe makes 
the market operate more efficient and transparent.
    One of the problems with the existing FERC jurisdictional 
markets is the overlay of capacity markets. We do not believe 
that these markets are necessary. ERCOT, which is the non-
jurisdictional RTO in the State of Texas, is an energy-only 
market, and they operate quite well without the need for this 
capacity market.
    Another problem that we have in the ISO and RTO markets is 
the rules and market design keeps changing all the time. There 
is no way for a large manufacturer to plan and forecast what 
their costs might be going out several years because the market 
rules are subject to change.
    Now, I want to get to the DOE 403 proposal. We are dead set 
against this proposal. We believe that it will destroy the ISO 
and RTO markets, if not, destroy the competition in those 
markets. What the attempt here is to create a big ATM machine 
for uneconomic obsolete coal and nuclear plants. Estimates of 
the costs to consumers of this proposal range from $800 million 
to $3.8 billion a year. Roughly a third of that would get 
passed on to the industrial infrastructure of this country.
    We will strongly weigh-in at FERC in opposition to this. 
What can Congress do? In H.R. 8, which you passed about a year 
and a half ago, there was a proposal in there for a study by 
the Government Accountability Office, GAO, to do an assessment 
of the ISOs and RTOs in this country. We support such a study. 
Hopefully it won't be an obituary for the ISO and RTOs as a 
result of the 403 proposal.
    We would urge another study to be formed by GAO on the need 
for these capacity markets. A lot of money is being transferred 
from consumer pockets through the ISOs to suppliers, as a 
result of these capacity markets. We challenge the need for 
them.
    Finally, I want to thank the commission--or the 
subcommittee for this opportunity. And I would like to take my 
last seconds to urge you that if you tamper with the law of 
PURPA, especially Title II, be careful, it works in most 
applications in this country and at most States, and CHP is not 
the problem.
    [The prepared statement of Mr. Hughes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you. Votes have been called on the House 
floor, so we will do one more. We will do Stefanie Brand, 
Director of New Jersey Division of Rate Council, and then we 
will adjourn and come back after the votes.
    Ms. Brand.

                 STATEMENT OF STEFANIE A. BRAND

    Ms. Brand. I will do my best to talk quickly. Good morning, 
Chairman Upton, members of the subcommittee. Congressman 
Pallone, thank you for your kind words and for everything you 
do for New Jersey's consumers.
    I am the Director of the New Jersey Division of Rate 
Council, which is charged by statute with representing 
consumers at both the State and the Federal level. I am also a 
member of the executive committee of NASUCA, which is an 
association of over 40 offices like mine throughout the 
country. And our office and other members of NASUCA have been 
actively involved in pressing for greater consideration of the 
needs and interests of consumers, both the RTOs and FERC. And, 
frankly, it has been a very long and uphill battle.
    At PJM, the shear number of issues and meetings makes it 
very difficult for consumers to participate. The stakeholder 
process is very complex and requires attendance at many 
meetings. In September alone there were 44 meetings over 22 
days. And while a lot of them are accessible by phone or on the 
web, most of the work occurs in the hallways or on the 
sidelines. And so that makes physical presence a priority, if 
not a necessity. And that can be a tremendous strain on offices 
like ours.
    The consumer advocates within PJM formed a group called 
CAPS, Consumer Advocates of PJM States, that allows us to pool 
our resources so that we speak together with a stronger voice. 
We have an executive director who is present at the most 
important meetings, and he represents us as a group. And 
individual offices have stepped up efforts to vote and 
participate. Even with this increased focus, our participation 
is limited in less than the other sectors of PJM.
    There are a few potential solutions to increase consumer 
participation at the RTOs. The first would be to identify and 
make available sources of funding for groups like CAPS. The 
amount that would be needed is very small. CAPS funding amounts 
to about a penny a year per residential customer.
    Consumer participation in the RTOs could also be improved 
if consideration of the interest of consumers was made a more 
central part of the RTO's mission. Ensuring that rates are just 
and reasonable is an essential goal of the Federal Power Act. 
It should also be an essential goal of the RTOs.
    While CAPS represents a significant step forward, 
consideration of the interests of consumers remains inadequate. 
PJM's primary function is to keep the lights on. And it freely 
admits that it does not necessarily factor in the ultimate cost 
when putting forth proposals or approving projects. While we 
certainly share PJM's interest in keeping the lights on, we 
believe that cost should be taken into account early in the 
process so that customers get the service they need but at a 
just and reasonable price.
    The failure to adequately consider costs early enough is 
something that needs to change to make the system work better 
for consumers. With respect to the markets, competition should 
keep prices at a reasonable level. Up until now, at least, the 
competitive markets have worked for New Jersey rate payers and 
that we have benefited from our participation in them. However, 
as time has gone on, there have been more and more 
administrative changes to the market rules so that it is hard 
to even call them a market.
    Since 2010, there have been 27 significant filings made to 
modify the rules of the capacity markets, and they have changed 
in just about every year since 2007. So what is the impact of 
this for consumers? First, the system is so opaque and 
confusing and constantly changes, that the average consumer 
will never make sense of it.
    In New Jersey, generation transmission costs, which flow 
through PJM, account for nearly 60 percent of a customer's 
bill. And there is really no way for customers to understand 
how those numbers are derived.
    Second, the complexity of the rules, I believe, leads to 
higher prices. There are so many fixes each time a particular 
problem or issues arise that consumers end up paying more. In 
fact, as we are seeing now, even when the market does work, 
favoring lower price generation sources and bringing overall 
prices down, the generators faced with those lower prices then 
seek changes to undo the market results.
    Rather than leveling the playing field, these efforts raise 
the entire playing field so that everyone pays more. We do have 
a strong independent market monitory at PJM, and the access and 
independence of the market monitor is essential, not only to 
protect competition, but also to foster confidence in the 
markets by regulated entities and the public.
    At FERC, nearly all proceedings are conducted on paper with 
limited opportunity for public input. There is generally no 
opportunity for cross-examination on factual issues and no oral 
argument on legal or policy issues. Consumers need real 
representation at FERC to protect their due process rights. 
Increase transparently and more opportunity for public 
participation would advance that important directive.
    There is a bill pending, H.R. 2656. There are also some 
provisions existing in the Federal Power Act, to create an 
office of consumer advocacy at FERC, and that would also 
provide intervenor funding. This legislation should be 
supported and it is supported by us, and I hope that you will 
support it as well. Thank you for the opportunity.
    [The prepared statement of Ms. Brand follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you. We will now take a recess. It will 
probably be 30 to 40 minutes long while we have the votes. So I 
would tell Members we have 6 \1/2\ minutes left in the vote 
series.
    [Recess.]
    Mr. Olson [presiding]. We will come to order. And as we go 
through our statement by witnesses, we have one more to go. We 
saved the best for last.
    Mr. Slocum, you have 5 minutes, sir.

                   STATEMENT OF TYSON SLOCUM

    Mr. Slocum. Absolutely. Thank you so much, Mr. Chairman.
    So I am Tyson Slocum, and I am the energy program director 
for Public Citizen. Public Citizen is a national, not-for-
profit, membership-based group. We have got over 400,000 
members and supporters across the United States, many of whom 
live in FERC jurisdictional markets and pay energy prices that 
are set in those markets.
    We see that consumers are facing three broad threats in 
today's power markets. First is that there are political and 
regulatory efforts by owners of what we see as mismanaged and 
uneconomic generation assets seeking billions of dollars in 
bailouts, whether that is through the Department of Energy's 
cost of service proposal or whether it is through market tweaks 
as was discussed before with the various RTO capacity markets. 
This is a huge threat to consumers.
    Second, the regional transmission organizations were really 
designed to accommodate the interests of transmission owners 
and generation owners. And they oversee a complex stakeholder 
process where details of market rules are deliberated and 
largely written. And this is a process that does not include 
the public interest very well, and there needs to be 
fundamental reforms to the way that those regional transmission 
organizations administrate those stakeholder processes.
    And, third, it has now been 577 days since the Federal 
Energy Regulatory Commission has failed to respond to a 
proposed rulemaking to create and fund the office of consumer 
advocate that--the office of public participation that, among 
other things, could provide intervener compensation to members 
of the public who meaningfully contribute to FERC dockets. And 
so addressing these three things is paramount in order to 
ensure that consumers are being adequately protected in 
markets.
    So first I think it is important just to note that we are 
in the midst of a remarkable transition in America's energy 
markets that is really being driven by innovations in the 
production, transmission, and consumption of electricity.
    And there are three factors that are contributing to those 
innovations. One is just the proliferation of inexpensive 
renewables, especially utility scale. Second is continuing 
flat-lining demand. And especially when you factor in economic 
growth, demand is actually decreasing as a share of American 
economic output. And second is cheap natural gas.
    And those three innovations are providing lower costs, more 
resiliency, and more sustainable energy systems and are 
absolutely benefiting consumers. But with any sort of 
disruptive transition, you are going to have economic losers. 
And those economic losers right now are predominantly 
mismanaged and not well run nuclear and coal base load units 
that frankly cannot effectively compete against superior 
competition.
    And throughout history, we see decisions that are made by 
industries. Either you improve efficiencies and compete with 
your rivals, or you turn to Government institutions or 
regulatory agencies and attempt to get bailouts for your 
inefficient operations. And that is really what this Department 
of Energy bizarre rulemaking before FERC is about. It is about 
accommodating and prioritizing these inefficient base load 
nuclear and coal generation units.
    And you don't have to take my word for it that there's no 
crisis of reliability from the retirement of nuclear and coal 
plants. That is what the North American Electric Reliability 
Corporation has concluded. That is what the Department of 
Energy's own August staff report, that there is no reliability 
crisis. That, in fact, we are seeing resiliency and reliability 
benefits from the energy transition that we are seeing to 
renewables and lower demand.
    The thing on RTO reform that needs to happen in order to 
protect consumers, I think that Congress and FERC needs to 
contemplate whether or not we need to split the regional 
transmission organizations in two, retain their function as the 
physical operator of the bulk power market, but separate out 
from the RTOs the job of administrating the stakeholder process 
where tariffs and market rules are developed.
    And the third thing that can be done to protect consumers 
is for Congress to start weighing in and get FERC to support 
the proposed rulemaking to create and fund the office of public 
participation, including providing intervener funding to the 
public.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Slocum follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Olson. Thank you, Mr. Slocum.
    Now it is fun time where Members get to ask 5 minutes of 
questions alternating between Republican and Democrat. And 
since I have the gavel now, I give myself 5 minutes for 
questions.
    My first question is for you, Dr. Bowring. The DOE order 
tip to FERC on electricity markets to how we value resources 
has certainly sparked some conversations. It is something of a 
scramble among power generators and even large consumers. The 
most colorful descriptions I have heard came from our new FERC 
commissioner, Robert Powelson. He said, regarding concerns, if 
the rule does undue competitive markets, quote, ``when that 
happens, we are done. I am done,'' end quote.
    Wow. That is pretty strong.
    Sir, I would like to share your thoughts on what is 
happening with larger and older power plants and PGM. Do you 
think the stress being faced by coal nuclear plants is a sign 
by flaw in the market or just market force at work, or a 
combination of the two?
    Mr. Bowring. I think it is entirely market forces at work. 
Despite some of the commentary, not all nuclear power plants 
are uneconomic. Some are uneconomic. To the extent that they 
are retained artificially in the market, they make other 
nuclear power plants as well as other coal plants worse off. So 
subsidies are counted on the market, they actually make the 
market work less well. And if you extend it even further, they 
will--as some have said, they will ultimately destroy the 
market. So it is about market forces. It is uneconomic 
resources being replaced by economic resources.
    Mr. Olson. Thank you.
    Question for you, Mr. Vanderhelm, from Walmart. In your 
testimony, you gushed about my home State of Texas--I--
appreciate that--and that Walmart has the goal of going 100 
percent renewable. You talked about the example that you are 
contracted directly with winds farms in my home State. As you 
know, Texas, it is the number one State in American for wind. 
We are number one. Bigger, prouder, better.
    Can you talk a little about your experience in choosing 
your own generation sources and why it is important to Walmart?
    Mr. Vanderhelm. It is important for Walmart, first and 
foremost, because it is economic. The thing that I always make 
sure that people understand is, while Walmart has these 
aggressive renewable energy goals. I work for the part of the 
organization that is part of operations. So we are executing on 
that procurement based off of the economics associated with it. 
That is the first and foremost one.
    Obviously, we see our mission as an organization is broader 
than just shareholder economics, and that enables us to also 
show the benefits to our associates, the customers as well, in 
terms of turning our portfolio greener.
    Mr. Olson. Thank you.
    How do you balance your cost through generation purposes? 
How do you make that balance?
    Mr. Vanderhelm. Sorry. How do we make the determination 
to--
    Mr. Olson. The balance between your cost--your generation 
preference, for example, wind power. How do you balance that 
here is our cost and just--any idea? Any insights on how you 
guys look at that?
    Mr. Vanderhelm. Yes. Absolutely. We would always 
preferential--first of all, you know, something which is 
cheaper before--you know, before something which is more 
expensive. So, again, I think your question implies that 
somehow renewables are more expensive. I just want to make sure 
that, you know, that is a win-win. In other words, we are 
identifying both the greener power and cheaper power, we go 
down that path. We are moving as quick as we can in all parts 
of the country. Thanks to Texas for providing the construct 
that enables us to execute there quicker. But we are looking at 
doing it across the country. And we are constantly looking at 
green power which is more cost-effective than brown power.
    Mr. Olson. Well, thank you. I want to close the challenge 
for my friend from Massachusetts who is not here. So Ms. 
Tepper, you are from Boston; is that correct?
    Ms. Tepper. Yes, I am.
    Mr. Olson. OK. As you know, my colleague, Mr. Kennedy, 
knows, his Boston Red Sox, your Boston Red Sox, are in Houston, 
Texas, right now. They are about to be destroyed by my Houston 
Astros. The first pitch is at 4:08 Texas time. And you 
remember, just last week, my Astros played four games in Fenway 
Park. They were three Astro wins, one Red Sox win, outscored 24 
to 13 over four games.
    And so please pass on if you want participate in a little 
bet, a little friendly wager. If the Red Sox win, very 
unlikely, I will eat a big bowl of Massachusetts clam chowder 
with the press there. Chowder. But if my Astros win, as 
expected, you-all come down and have a big hot bowl of Texas 
chili with the press there. Is that----
    Ms. Tepper. Oh, we are on. That sounds great. Yes.
    I look forward to you having some chowder.
    Mr. Olson. Without objection, so ordered.
    Chowder.
    All right, my time has now expired. I now call upon the 
gentleman from Illinois, the ranking member of the 
subcommittee, Mr. Rush, for 5 minutes.
    Mr. Rush. Is it chowder, chili service, or over?
    Mr. Olson. Oh, no. Just going to start. We are playing a 
five-game series with the Red Sox there. Houston Astros versus 
the Boston Red Sox, as I mentioned. We just closed out the 
regular season by going 3-1 in Fenway Park. It is bad news to 
the Red Sox. The Redcoats are coming, the Redcoats are coming.
    But you have got 5 minutes, my friend.
    Mr. Rush. It is going to take me to 5 minutes to recover.
    To all the panelists, I would like to quickly go down the 
line and ask who takes issue with the recent DOE NOPR on grid 
reliability pricing? Please give me a ``yes'' or ``no'' if you 
have a problem with the NOPR. And if so, is it based on process 
or on the substance or both?
    Mr. Bowring. Yes. I have an issue with it on both process 
and substance. The process is too fast. The substance is wrong. 
It is inconsistent with markets. It will contribute to 
destroying markets.
    Ms. Tepper. We too have a problem with process and 
substance.
    Mr. Vanderhelm. Same. Issue with both process and 
substance. Our concern about its impact on the competitiveness 
of markets by putting that type of additional adder in their 
revenues. Also, our concern about the process and the 
accelerated review period that has been suggested.
    Mr. Hughes. Ditto those remarks. I would also add that our 
read of the DOE proposal is that DOE is saying that U.S. 
manufacturing jobs are not as good as the jobs of economically 
obsolete coal and nuclear plants.
    Ms. Brand. I will add my voice to the chorus. We oppose it 
both on substance and on procedure. I think it basically 
illuminates the competitive markets, and I think that the 
process shows exactly what we were talking about today about 
how difficult it is to be heard. And so we oppose it on both 
grounds.
    Mr. Slocum. The Department of Energy's proposal is 
terrible. And I don't think anyone likes it except for those 
entities that have economic vested interests in the uneconomic 
nuclear and coal-fired power plants. Public Citizen is on the 
same side as this issue as the American Petroleum Institute, 
which has been pointed out to me as probably the first time in 
history that that has happened.
    The process is always problematic. There was no reason for 
FERC to fast track this rulemaking. So it is important for 
Congress to get some answers from FERC as to why they did that. 
And it just again shows how critically important the creation 
of an office of public participation is at FERC, because all of 
a sudden, we have got some huge issues of concern to consumers 
that are moving very quickly through FERC. And Congress is on 
record with creating the office of public participation that 
the public interest needs more assistance in order to have an 
equal seat at the table.
    Mr. Rush. Thank you very much. Again, to all of the 
panelists, and I wish you would keep your answers brief on this 
question, do you believe the RTO stakeholder process serves the 
interests of consumers, or do you believe these consumer 
interests are consistently underrepresented in this process? 
And what reforms will you recommend to the subcommittee?
    Mr. Bowring?
    Mr. Bowring. Yes. Thank you.
    So consumers are represented. I don't think the 
representation is effective as it could be, and I think it is 
because of a lack of resources. So for the reasons that my 
colleagues here on the panel have indicated, I think customers 
need to be strongly represented in the RTO stakeholder process, 
and it is not currently as strong as it could be.
    Ms. Tepper. I would agree with that. And one of the 
suggestions that I think would be helpful would be to provide a 
stable funding mechanism for the State consumer advocates, 
something maybe like what they are doing in New England. We 
have a State process where--it is called NESCOE where the 
States get money from--as a group, get money through the 
tariff. And they are able to then participate. They have their 
own staff, and they are able to go to all of those 100 
meetings. And they are meaningfully participating with doing 
their own studies. Right now the way it works is that consumer 
advocates simply don't have that kind of resources to be able 
to participate in that kind of way.
    Mr. Vanderhelm. I would first say that, for the large 
consumers, that we do have an opportunity to participate and 
always welcome greater participation from all the stakeholders, 
whether it be in the deregulated markets, ISOs and RTOs, or in 
the regulated process that is also relevant throughout the U.S.
    Mr. Hughes. ELCON exists to intervene where necessary at 
FERC. And so we are generally pleased with our ability to 
effect that agency. At the ISO and RTO level, we have some 
serious problems there. There are just too many of them, too 
many meetings. And we are just totally incapable of providing 
that coverage on an effective basis.
    Ms. Brand. We have gotten a stable source of funding in PJM 
for consumer advocates, but I would say that it is still not 
enough. We work a lot. We have stepped up our participation. We 
are trying to be heard. But the way the process is set up, it 
is just so difficult to have our voice heard among all of the 
members of PJM that I still think that more needs to be done.
    Mr. Slocum. Yes. I agree. The RTOs are just an 
administrative nightmare. They are way too complicated. And the 
issues that they are deliberating on a daily basis have 
profound financial impacts on consumers. And consumers do not 
have an equal seat at the table. And there need to be 
fundamental reforms of the governance and transparency 
structures of the RTOs to more properly reflect the 
contributions of all the stakeholders, and particularly the 
public interest.
    Mr. Rush. Thank you, Mr. Chairman.
    I yield back.
    Mr. Olson. The gentleman yields back. Instead of using 5 
minutes of my time for taunting the Red Sox fans like Ms. 
Tepper, I will recognize the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to ask Ms. Brand some questions, if I could. And 
thanks again for being here.
    A recent report commissioned by American Municipal Power 
states that more than half of the $24.3 billion in transmission 
projects in PJM in 2012 were unneeded to comply with the RTO or 
Federal reliability requirements and were not subject to 
rigorous review. So three questions. First, what can be done to 
ensure that reliability requirements are thoroughly evaluated 
in a transparent manner with active involvement from impacted 
stakeholders?
    Ms. Brand. Well, I think that process could be reformed as 
well. There are some transmission projects that are needed for 
reliability. NERC will identify a problem and ask PJM or the 
RTO to solve it. But then there are a whole bunch of other 
projects that are proposed by the transmission owners because 
they are incredibly lucrative for the transmission owners. The 
returns on transmission are huge, so everyone wants to build 
whatever they can.
    And what happens is that the need--both for the RTEP 
projects and for the supplemental projects, the need for the 
projects is not adequately reviewed at PJM. On an RTEP project, 
once they say it is needed, you don't go back and revisit that, 
even if things change and there is no longer a need for that 
particular line.
    So I think greater scrutiny needs to be made, and they need 
to go revisit their prior decisions on a regular basis to make 
sure that we are only building the transmission that is 
actually needed, because it represents a huge part of the 
customer's bill, and there is just no point in building 
transmission that is not needed.
    Mr. Pallone. All right. Thanks.
    Then in your opinion, how can we build transmission 
projects more cost-effectively while minimizing impacts to 
local communities and their environment?
    Ms. Brand. Well, cost-effectively I would argue that the 
returns that are granted by FERC for transmission are 
completely off the charts. Some utilities are getting close to 
12 percent return on these projects, which, in this economy, is 
a bit crazy. You know, there is some pain always when you are 
building a transmission project in any community that it goes 
through. But if it is needed, then people, I think, are more 
willing to accept it. The problem really comes in when you have 
these huge transmission lines that are just gashing a hole 
through a community, and then it turns out they are not needed. 
And that is what really needs to stop.
    Mr. Pallone. Because, obviously, project costs get passed 
along to the rate payers, can there be specific criteria that 
have to be met by States before utilities or transmission 
operators are allowed to move forward with planning these 
large-scale infrastructure projects?
    Ms. Brand. Well, in terms of the cost, it is a pass-
through. The States don't really have a role in determining how 
they get charged for it. The States will have a role in 
specific siting of a transmission project. But, again, it is a 
difficult process.
    We are going through a situation in New Jersey right now 
where there is a trial that has been going on for months to try 
to figure out whether or not it is being put in the right 
place. And the utility's goal is to get it built and to start 
earning on it, whereas the people who are in the path of that 
line are often--they don't have a significant voice or they are 
just in the way.
    Mr. Pallone. Well, you know, that is in my district, so I 
appreciate your commenting on it.
    The last thing. I worry that drastically overestimating 
load forecasts on a regular basis can lead to unnecessary 
buildup and must be paid for by rate payers. Are there any 
checks and balances in place to encourage PJM not to 
overexaggerate forecasts? And then, in your opinion, what can 
PGM do to minimize transmission projects that are approved or 
built and then underutilized resulting in high-stranded cost?
    Ms. Brand. Well, PJM has traditionally overpredicted its 
load. There is no question that we come in at a lower level. 
There is a lot of advances in technology, and people are 
actually conserving. So their load forecasts have been high for 
a very long time.
    They did change the rules a little while back so that they 
don't revisit projects once they have been approved as 
necessary to resolve reliability violations. And they did that 
because they were trying to avoid the disruption that occurs 
when you approve a project, then you take it out, and then you 
approve a project, and then you take it out. But the end result 
is that we are now building transmission that is no longer 
needed based on the load profile. So I think they need to go 
back and have some form of regular review of these projects to 
make sure they are still needed, especially if they haven't 
started.
    Mr. Pallone. All right. Thanks so much.
    That you, Mr. Chairman.
    Mr. Olson. The gentleman yields back. The Chair now calls 
upon the gentleman from Texas, another Houston Astros fan, Mr. 
Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and thank our 
committee, because we have held a number of these hearings over 
the last few weeks and months looking at the reliability issue.
    And Mr. Vanderhelm, in your testimony, you talk about the 
integral competitive wholesale markets--or contribute to 
Walmart's success. But before you answer, I want to thank 
Walmart, because I have a district in the Houston area. And I 
had a number of Walmart trucks coming to churches in our 
district who were--facilities to get food, and you-all are 
great corporate citizens, both in North and East and Southeast 
Harrison County.
    Mr. Vanderhelm. Thank you for your comments.
    Mr. Green. But the competitive electricity market that was 
created in Texas, and it has been very successful, is that an 
integral part of Walmart's success?
    Mr. Vanderhelm. It certainly has enabled us to both 
continue to be able to procure electricity at lower prices year 
upon year by having that competitive market there just for all 
the stores. And as I mentioned in my testimony, enables us to 
directly contract with renewable energy or any other type of 
energy where it is delivered directly at the hub where we would 
be buying our retail energy.
    Mr. Green. When your customers see the lights go out, what 
are the most prevalent reasons? Is it lack of generation?
    Mr. Vanderhelm. No, sir.
    Mr. Green. OK. A recent study, released this week, showed 
that, from 2012 to 2016, showed 96.2 percent of all sources of 
energy disturbance came from severe weather events, not 
generation and capacity, or fuel supply emergencies which 
account for less than 0.008, less than a hundredth of single 
percent. 2014, NERC released a report reviewing the polar 
vortex. In this report, NERC found that the extreme cold froze 
many coal piles rendering them useless for power generation.
    Can the witnesses talk about issues from the polar vortex 
and how that affected customers like the one I mentioned? Is 
there any--is that true?
    I am from Texas. We don't get snow but about every 10 
years. I am sorry we get hurricanes and tropical storms every 7 
or 8 years.
    Mr. Bowring. It was cold during the polar vortex. One of 
the things it illustrated was that the performance incentives 
were not in place in the capacity market. That has since been 
addressed. The forced outage rate for combustion turbines and 
other units is very high, but it was not a result of absence of 
fuel. It was the result of primarily mechanical problems at the 
units.
    Mr. Green. Any other witness?
    Ms. Brand. Well, after the polar vortex, PJM did make some 
rule changes and did take steps to try to make sure that we 
won't get that close again to not having enough generation. And 
we haven't even tested it yet. And already there are people 
saying that it wasn't enough. So I would definitely advocate 
for let's see if the solution we came up with works before 
deciding that it didn't.
    Mr. Green. In a number of these hearings, we have heard--
and, of course, it doesn't take a Texan too much to brag, but 
that we have some really good success in our competitive market 
in witness after witness in different panels. That is why I was 
skeptical this last week of Secretary Perry's recent DOE 
rulemaking announcement that would fundamentally change the 
structure of free energy markets.
    We created that when he was the Governor of the State. We 
have heard multiple times how competitive free markets for 
energy benefit consumers in a variety of ways. In this proposed 
and, I think, rushed rulemaking, the Secretary is suggesting it 
is in the national interest to subsidize industry like coal who 
can keep 90-day fuel supply on-site moving that number up from 
the existing 71 to 74 days.
    Can anyone on the panel comment on how 90 days of frozen, 
soggy coal is better than 71 to 74 days? Do you see this 
rulemaking is making your grid reliable?
    Mr. Bowring. Sir, it is our view that subsidizing 
particular technologies on economic technologies is not 
necessary to make the grid more reliable. The grid has been 
reliable and resilient, and continues to be that way as a 
result of competitive markets.
    Ms. Tepper. I think you could look at New England as a good 
example of how one can make a change in the markets and adjust. 
You know, we now have the lowest prices, wholesale prices, in 
New England than we have had since 2003. We don't have a 
reliability problem. Many studies have shown we have no 
reliability problem. And we have reduced our air emissions by--
SO2 by 96 percent.
    So we are doing that while we are reducing emissions, and 
we are reducing our load. Last year we reduced our load by 2 
percent. So that is from our energy efficiency programs and 
from solar. So you can make a change. And the markets are 
flexible enough to accommodate those changes. I think our 
markets are trying hard right now to accommodate those changes. 
And it is not a reliability issue.
    Mr. Green. What is the base load for the New England 
market?
    Ms. Tepper. You mean what is the major----
    Mr. Green. What is your power----
    Ms. Tepper. Gas.
    Mr. Green. Gas?
    Ms. Tepper. Uh-huh.
    Mr. Green. OK. Obviously we would like to sell you more 
natural gas.
    Recently, Hurricane Harvey dumped so much water on Texas 
that the Electric Reliability Council of Texas had to switch to 
units from coal to natural gas. Natural gas is by far the 
largest provider during the storm, although I can also say our 
nuclear power plant in Southeast Texas continued to function 
very well.
    At the San Jacinto plant site which uses natural gas, the 
storm dumped 47 inches of the rain and yet it remained in 
operation. It is frankly just not the case that increasing 
natural gas-fired plants is threatening reliability of the 
grid, because we also found out that coal gets soaked with 
water, and it doesn't work whereas natural gas doesn't.
    Mr. Chairman, I want to thank you, thank our witnesses. 
And, again, I appreciate this series of hearings we are having, 
because it really gets us all up to speed on electrics in 
generation.
    Thank you.
    Mr. Olson. The gentleman's time has expired. The Chair now 
calls upon the pride of Clarkson University, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. Thank you for your 
enthusiasm. And thank you for organizing this very informative 
bipartisan powering America's series.
    I certainly have learned a lot. And I thank our witnesses 
for appearing here. And not just here testifying but also for 
the significant work you do in a very important arena.
    We expect a lot out of our grid. We want it to be clean, 
reliable, flexible, resilient, and, yes, affordable. We have 
been holding these hearings, and many witnesses have made great 
points about the present and future of our electricity systems. 
But we have to remember: If we want utilities to invest in 
resiliency or RTOs to require greater reliability, the costs 
ultimately gets passed down to consumers, and that will hurt 
affordability.
    Developing a modernized grid is about balancing all of 
these qualities. And members and stakeholders may have 
different ideas on how to do that best and how to value 
individual grid attributes. I think this is best done through 
dialogue which must include transparency and participation in 
FERC, in RTO proceedings.
    So I want to highlight very important points made by a 
number of witnesses this morning. Participation in FERC and RTO 
proceedings is incredibly difficult for consumers. The process 
can be technically complex, costly, and time-consuming which 
creates, in its own, a high barrier to participation.
    So if I might ask Mr. Slocum: If consumers don't have a 
seat at the table, does affordability get pushed aside in favor 
of other grid attributes?
    Mr. Slocum. Absolutely. The stakeholder meetings at the 
various RTOs, that is really where the heavy lifting of market 
rules and tariff writing occurs. And as has been very well 
articulated by some of the State consumer advocates in RTOs 
here, the consumer advocates do not have the resources from a 
financial standpoint, a staff standpoint to adequately 
participate in those proceedings. And so as a result, those 
stakeholder meetings are shaped by those entities that have the 
resources to contribute.
    And that increasingly are the transmission owners, the 
generation owners. And so as a result, you are seeing a bias 
coming out of that stakeholder process. And so we have got to 
recognize that the RTOs are staffed by good, honest, 
hardworking people. But the structure of the way that they 
administrate these stakeholder processes, it is fundamentally 
broken. And we have got to have total reforms to the way that 
those are conducted or a total separation of that stakeholder 
function from the RTOs into an entity that is more accountable 
to the public interests.
    Mr. Tonko. Thank you.
    Ms. Tepper and Ms. Brand, Do you agree with those 
sentiments?
    Ms. Tepper. Yes. I would add that I think that we have had 
some successes at ISO New England in being more cost conscious. 
One of the things that consumer advocates really fought for was 
having more competition in the transmission--building of 
transmission. I think that is slowly happening. I think we have 
done a good job in integrating energy efficiency into our load 
forecast price so that we are not buying too much and we are 
estimating how much energy efficiency is going to be going in 
the future.
    But we have a lot of work to do. ISO and the other RTOs 
need to have that part of their mission. Part of their mission 
needs to be also worrying not just about reliability but how 
much what they do costs.
    Mr. Tonko. And Ms. Brand?
    Ms. Brand. I would also agree. But I would also say that 
part of the problem is when they consider costs. A lot of times 
costs don't even enter into the discussion until we are so far 
along that everybody has already made up their mind. And we 
have made some progress. We certainly have. We have the CAPS 
organization in PJM, and we try to be there on day one to bring 
costs to the forefront. But it is a very difficult task.
    Mr. Tonko. And a number of witnesses described the 
significant costs and barriers to participate. Ms. Tepper and 
Ms. Brand, your testimonies describe how multiple entities have 
pooled their resources in order to have consumer advocates more 
fully participate. It seems that funding of full-time voice for 
consumers can be difficult. Are there other ways or 
compensation structures that would enable more robust 
participation?
    Ms. Brand. Well, we have a tariff provision, so we do have 
funding. More funding, I think, would make the difference. But 
also funding of more entities. CAPS does a terrific job of 
representing the consumer advocates. But, for example, you 
know, I am sure Mr. Slocum would love to participate in the RTO 
proceedings. But there is no resources to do it.
    So, you know--and we end up as one voice among many. Even 
though we are pooling our voices and speaking more strongly, it 
still cannot--we are completely drowned out by the transmission 
owners and generation owners.
    Mr. Tonko. And Ms. Tepper.
    Ms. Tepper. I definitely would say that the consumer 
liaison group that I run, the people on the coordinating 
committee, I think, would universally say that to have a 
broader participation, not just to the consumer advocates but 
of businesses, of universities, that requires additional work.
    Mr. Tonko. Thank you.
    Mr. Chair, if you will indulge me for just 10 seconds.
    Mr. Olson. Twenty seconds. How about that?
    Mr. Tonko. I want to associate myself with the witnesses' 
comments about DOE's proposed rulemaking to FERC. Subsidizing 
noncompetitive generation for a small, if any, grid benefit at 
massive expense to consumers is wrong. It is bad for 
individuals. It is bad for businesses. It is bad for 
manufacturers. And it definitely should not be done through a 
rushed process.
    We need more discussion on proceedings and their merits and 
not less. And I would say to DOE, please, please keep consumers 
in mind. This is a bad move.
    With that, Mr. Chair, I yield back.
    Mr. Olson. The gentleman yields back.
    And seeing no further witnesses to ask questions, I would 
like to thank all the witnesses for your patience during votes 
and, again, for being here today.
    Also, special thanks to you, Mrs. Tepper, for accepting my 
challenge on behalf of Mr. Kennedy and all Boston Red Sox fans 
around the world. We are going to take you down.
    Ms. Tepper. I will warm up the chowder for you.
    Mr. Olson. Got a big hot bowl of steaming chili waiting for 
you with lots of jalapenos on it. Very hot.
    There being no documents for the record and pursuant to 
committee rules, I remind Members that they have 10 business 
days to submit additional questions for the record and ask the 
witnesses to submit their responses within 10 business days 
upon receipt of those questions.
    Without objection, this subcommittee is adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
